               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        U.S. Postal Service Budget
    Formulation and Execution Process

               Management Advisory




                                              August 7, 2013
Report Number DP-MA-13-002
                                                                             August 7, 2013

                                                                     U.S. Postal Service
                                              Budget Formulation and Execution Process

                                                             Report Number DP-MA-13-002



BACKGROUND:                                       Headquarters, with input from various
The U.S. Postal Service's budget                  departments. The Integrated Financial
operates on a fiscal year calendar                Plan combines the operating budget,
beginning October 1 and ending                    capital investment plan, and financing
September 30, with the overall                    plan into one document for review by
responsibility for the budget formulation         the Executive Leadership Team. Once
process belonging to the chief financial          approved by executive leaders, the plan
officer. The process begins in February           is presented to the Board of Governors
before the coming fiscal year and is              for final approval.
completed about 8 months later with the
Board of Governors approval.                      Headquarters, area, and district
                                                  personnel assess budget performance
The Revenue and Volume Forecast                   throughout the year. Additionally, the
group initiates the budget process by             Corporate Budget Office and Corporate
developing revenue and mail volume                Accounting examine financial results for
forecasts for the upcoming fiscal year.           irregularities and abnormalities.
They calculate these forecasts using
changes in demand for postal products,            Our objective was to document and
to current laws and regulations, and in           analyze the budget formulation and
assumptions about the current                     execution process. This report provides
economic outlook. Once revenue and                management with a single, consolidated
mail volumes are projected, expenses              document describing the budget
are projected. The expense projections            process and provides a knowledge
include operating budgets for about               resource for future audits and analyses
32,000 field offices and other service-           of Postal Service budgets.
wide costs such as headquarters'
administrative and program costs. At the          WHAT THE OIG FOUND:
same time, the Corporate Budget Office,           We found the Postal Service budget
Corporate Treasury Office, and other              formulation and execution process has
program managers prepare capital                  sufficient documented measures in
investment and financing plans.                   place for managing and monitoring the
                                                  budget process.
Once projected revenue and expenses
are reviewed and approved by the chief            WHAT THE OIG RECOMMENDED:
financial officer, the Integrated Financial       The report does not contain any findings
Plan is developed by the chief financial          or recommendations. It documents the
officer; vice president, Finance and              Postal Service’s budget process.
Planning; and the manager of Finance              Link to review the entire report
August 7, 2013

MEMORANDUM FOR:            STEPHEN J. MASSE
                           VICE PRESIDENT, FINANCE AND PLANNING




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Management Advisory – U.S. Postal Service Budget
                           Formulation and Execution Process
                           (Report Number DP-MA-13-002)

This report presents the results of our review of the U.S. Postal Service Budget
Formulation and Execution Process (Project Number 12BG030FF000).

This report contains no findings or recommendations. The Postal Service informally
reviewed a discussion draft of this report and chose not to provide formal comments.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Performance and Analysis, or me at 703-248-2100.

Attachment

cc: Megan J. Brennan
    Joseph Corbett
    Stephen J. Nickerson
    Corporate Audit and Response Management
U.S. Postal Service Budget Formulation and                                                                         DP-MA-13-002
 Execution Process



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Budget Formulation ......................................................................................................... 2

   Revenue and Volume Forecasting .............................................................................. 2

   Operating Budget Plan ................................................................................................ 3

   Capital Commitments Investment Plan ........................................................................ 5

   Financing Plan ............................................................................................................. 6

   Integrated Financial Plan ............................................................................................. 7

Budget Allocation Process .............................................................................................. 7

Budget Execution ............................................................................................................ 8

   Headquarters Budget Monitoring ................................................................................. 9

   Field Budget Monitoring ............................................................................................... 9

   Budget Performance Evaluation and Review .............................................................. 9

Budget Close-Out Process ............................................................................................ 10

Recommendation .......................................................................................................... 10

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objective, Scope, and Methodology .......................................................................... 12

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Budget Formulation and Execution Process Flowchart ............................. 14

Appendix C: Budget Formulation and Execution Organization Chart ............................ 15
U.S. Postal Service Budget Formulation and                                                         DP-MA-13-002
 Execution Process



Introduction

This report presents the results of our review of the U.S. Postal Service Budget
Formulation and Execution Process (Project Number 12BG030FF000). The objective of
our review was to document and analyze the budget formulation and execution process.
The report provides management with a single, consolidated document describing the
budget process and provides a knowledge resource for future audits and analyses of
Postal Service budgets. This self-initiated review addresses financial risk. See
Appendix A for additional information about this project.

The Postal Service's budget operates on a fiscal year 1 calendar beginning October 1
and ending September 30, with overall responsibility for the budget formulation process
belonging to the vice president, Finance and Planning, and the chief financial officer
(CFO). The process generally begins in February before the coming fiscal year and is
completed about 8 months later with the Board of Governors (governors) approval. See
Appendix B for additional information about the budget process timeframe.

The Revenue and Volume Forecast Group 2 initiates the budget process by developing
revenue and mail volume forecasts for the upcoming fiscal year. These forecasts are
calculated using projections of the economic outlook developed by an independent
economic forecasting firm, changes in demand for postal products, and known changes
to laws and regulations. Once revenue and mail volumes are projected, expenses are
projected. The expense projections include operating budgets for about 32,000 field
offices and other costs, such as headquarters administrative and program costs. At the
same time, the Finance Infrastructure Office 3 and Corporate Treasury Office 4 develop
capital investment and financing plans. Development of these plans is interdependent
and closely coordinated.

Once the CFO reviews and approves all projected revenue and expenses, the
Integrated Financial Plan (financial plan) is developed by the vice president, Finance
and Planning, and the manager of Finance Headquarters, with input from various
departments. The financial plan combines the operating budget, capital investment plan,
and financing plan into one document for review by the Executive Leadership Team

1
  A 12-month period used to keep accounts and other records for applications such as budgeting, planning, and
operations. The fiscal year begins on October 1 and ends on September 30 and is divided into 12 accounting periods
(one for each month), grouped into four postal quarters.
2
  The Revenue and Volume Forecasting Group is responsible for projecting revenue and volume using statistical
programs information and assumptions about the current economic outlook, including changes in demand for postal
products and changes to current laws and regulations.
3
  The managers of Finance Operations, Infrastructure, and Headquarters are three separate groups reporting to the
vice president, Finance and Planning.
4
  Corporate Treasury manages the Postal Service's money. The group is responsible for developing new electronic
payment technologies, developing and maintaining bank relationships, managing an annual cash flow of $100 billion,
investing and borrowing for the Postal Service, evaluating the financial aspect of new products and services, and
ensuring compliance with federal regulations.
                                                           1
U.S. Postal Service Budget Formulation and                                                            DP-MA-13-002
 Execution Process


(executive leaders or ELT). 5 Once the ELT approves the financial plan, the CFO
presents it to the governors for final approval.

After the governors' approval, the execution and oversight of the budget is the
responsibility of Finance (Operations, Infrastructure, 6 and Headquarters) groups.
Headquarters, area, and district 7 personnel assess budget performance throughout the
year. The Corporate Budget Office 8 and Corporate Accounting 9 have a financial
reporting process in place to compare actual results to budget performance based on
revenue and expense items and to look for errors and abnormalities. See Appendix C
for a flowchart of the budget department organization structure.

Conclusion

This report documents the budget formulation and execution process. We found the
Postal Service budget formulation and execution process has sufficient documented
measures in place for managing and monitoring the budget process.

Budget Formulation

The budget formulation process generally begins in February — prior to the start of the
fiscal year — with the revenue and volume forecasting process and continues through
development of operating expense budgets, a capital investment plan, and a financing
plan. The process generally culminates in November — following the start of the fiscal
year — with approval of the financial plan.

Revenue and Volume Forecasting

The Postal Service’s budget process starts in February with the projection of revenue
and mail volumes for the next fiscal year. The Revenue and Volume Forecasting Group
and program managers hold meetings to determine whether any changes in postage
rates that can affect revenue will occur. The volume projection model 10 is updated with
the most recent quarter’s actual revenue and volumes, provided by the Statistical
Program group. 11 Historical mail volumes, along with economic projections and other
5
  The ELT consists of Postal Service senior executives: the postmaster general (PMG), deputy PMG, chief operating
officer, chief information officer, CFO, general counsel, chief marketing and sales officer, and chief Human Resources
officer.
6
  Finance Infrastructure is dedicated to ensuring that future capital investments are aligned with the Postal Service
strategic goals to foster growth by increasing the value of products and services, managing costs and building
stronger relationships with customers and employees.
7
  District personnel include district managers, finance managers, postmasters, plant managers, and designated
supervisors.
8
  The Postal Service is responsible for creating, updating, analyzing, and reporting on the Postal Service's budget.
The Corporate Budget Office creates budgets within several sub-ledger systems. Budget components are created
within the sub-ledger systems and consolidated to the National Budget System.
9
  Their mission is the efficient management of systems, processes, and transactions in compliance with established
policy to provide timely, accurate, and reliable reporting and management information to all stakeholders.
10
   The volume projection model is based on economic assumptions using indicators such as gross domestic product,
retail sales, consumer price index, inflation, and so on, to estimate mail volume according to mail class.
11
   The Statistical Program Group provides statistically reliable, accurate, and timely estimates of revenue, volume,
cost, and transit time for domestic and international mail.

                                                          2
U.S. Postal Service Budget Formulation and                                                              DP-MA-13-002
 Execution Process


relevant data, are used as a basis for projecting revenue and volumes according to mail
class 12 for the upcoming year. Once revenue projections are calculated, they are
presented to headquarters product managers 13 for review and discussion. The
projected volumes for each class of mail are multiplied by the average revenue for each
of the mail products to determine total estimated revenue for the upcoming year.
Projected volume, by mail class, is one of the primary drivers for workload expenses14
for the field. Other economic indicators 15 used to develop the expense projections are
discussed in the Operating Budget Plan section. The actual revenue and mail volume
for FYs 2010 through 2012, and planned for FY 2013, are listed in Table 1.

                       Table 1. Postal Service Revenue and Mail Volume
                        FYs 2010 through 2013 (in Billions) by Category

                                        FY 2010            FY 2011            FY 2012            FY 2013
               Category                  Actual             Actual             Actual            Planned
        Revenue                                $67.1              $65.7              $65.2              $64.9
        Mail Volume                            170.6              167.9              159.9              153.1
      Source: Financial plan – FYs 2011 through 2013.

Operating Budget Plan

The Operating Budget Plan is developed during March through June by the managers
of Finance Operations, in conjunction with the manager of Finance Headquarters. The
managers apply the projected revenue and mail volume forecasted to a separate
expense forecasting model16 to determine personnel and additional costs necessary for
field offices to meet operational needs as described below. The Operating Budget Plan
is comprised of four components, listed and further explained below:

1. Field Expenses.
2. Service-Wide Expenses.
3. Headquarters Budget.

Field Expenses

Upon completion of revenue and mail volume projections, the Field Budget Group uses
the expenses forecasting model to develop the personnel expenses associated with the
personnel workload and wage and benefits costs. Using the mail volume projections for
each class and piece of mail as well as inflation factors and savings from cost-reduction


12
   Examples of mail class are Express Mail, First-Class Mail, Priority Mail, Standard Mail, and Package Service.
13
   Headquarters’ product managers include the managers of Retail, Commercial, and Marketing. The responsibilities
include knowledge of each mail revenue class and factors that could affect revenue projections.
14
   Workload expenses are comprised of three components: network cost and originating and destinating workload.
15
   Economic indicators such as high unemployment rate and slow economic growth continue to impact consumer
confidence, increasing economic risk. The Postal Service’s business, financial position, and results of operations will
continue to be adversely impacted to the extent that the U.S. experiences slow economic growth.
16
   The expense forecasting model projects expenses using projected year-end actual expenses as a base.

                                                           3
U.S. Postal Service Budget Formulation and                                                         DP-MA-13-002
 Execution Process


and productivity enhancement initiatives, the group projects personnel related expenses
for the year for each Postal Service area.

The Field Budget Group also estimates expenses not specifically attributable to
personnel activity, such as transportation, depreciation, rent, travel, equipment, and
office supplies. Inflationary impacts on these expenses and changes from cost-saving
initiatives are also considered in developing the non-personnel related portion of the
budget. Area budget personnel then allocate their respective budgets to each district,
which, in turn, develops budgets down to the finance number level. Personnel costs
represent the majority of the total operating budget plan.

Service-Wide Expenses

Service-wide expenses are costs incurred at the corporate or national level that cannot
be isolated and charged directly to individual operating or administrative units. Service
wide expense budgets are developed by Corporate Accounting and Corporate Budget
groups using the prior year-end actual totals as the base. Examples include worker’s
compensation administrative fees, retiree health benefits (RHB) premiums, interest
expenses, life insurance payments, and future RHB.

Headquarters Budget

The headquarters budgeted expenses are calculated and measured separately from
field expenses by the manager, Corporate Budget. Headquarters expenses include the
cost of headquarters organizations such as Corporate Accounting and Corporate
Treasury; field support units, such as General Counsel Field Units, accounting service
centers (ASC), and the U.S. Postal Inspection Service; and the U.S. Postal Service
Office of Inspector General (OIG). Headquarters expenses also include information
technology and program activities. Program activity expenses include costs associated
with the credit card program, stamp printing, the Delivering Results, Innovation, Value,
and Efficiency (DRIVE) initiative, 17 advertising, and marketing. These costs are
estimated based on prior year amounts and expected increases in labor and non-
personnel costs, offset by cost savings. Estimates and business cases are developed
for each program by their program manager. The field support units make up the largest
percentage of the headquarters budget. Actual total expenses for FYs 2010 through
2012, and planned for FY 2013, are listed in Table 2.




17
   A management process the Postal Service is using to improve business strategy development and execution. As of
June 10, 2013, DRIVE is focused on a portfolio of 24 key initiatives the Postal Service will implement to meet its
ambitious performance and financial goals. The relationship between the DRIVE initiative goals and the four core
business strategies are very closely linked but do not have clear one-to-one correspondence and are not clearly
aligned to performance metrics.

                                                        4
U.S. Postal Service Budget Formulation and                                                            DP-MA-13-002
 Execution Process



                Table 2. Postal Service Expenses FYs 2010 through 2013
                                 (in Billions) by Category
               Category         FY 2010       FY 2011      FY 2012  FY 2013
                                 Actual        Actual       Actual  Planned
        Expenses                              $67.6             $67.9              $67.5            $66.7
        Separation Costs 18                       -                 -                0.1              0.2
        RHB Pre-Funding                         5.5                 0               11.1              5.6
        Non-Cash Workers’                       2.5               2.9                2.4           To Be
        Compensation                                                                         Determined 20
        Adjustment 19
        Total Expenses                       $75.6              $70.8              $81.1              $72.5
      Source: Financial plan – FYs 2011 through 2013.

Capital Commitments Investment Plan

The manager, Finance Infrastructure, ensures that the capital commitments investment
plans are estimated to align with the Postal Service’s 5-Year Strategic Plan. Capital
investments include equipment, facilities, infrastructure, and support. The review
process of the capital commitments investment plan begins in March or April each year.
Each functional area 21 submits their capital expenditure requests by project to the
manager, Finance Infrastructure, for review. Requests include the project type by
location, cost, and any potential savings. The executive leaders prioritize their capital
commitment projects based on the expected return on investment and whether it will
improve the customers’ experience and support key initiatives. 22 Finance Infrastructure
reviews the requests and recommends projects for budget inclusion based on the
executive leaders' prioritizations by the end of June. The requests are returned to the
executive leaders for approval and inclusion in the capital commitments investment
plan. The actual capital cash outlay for FYs 2010 through 2012, and planned for
FY 2013, is listed in Table 3.




18
   Costs associated with separation incentives offered to employees resulting from the consolidation of facilities
planned for FY 2013.
19
   Non-cash effects of discount rate, actuarial valuations, and contingency.
20
   Costs associated with Non-Cash Workers’ Compensation adjustments will be determined by changes in interest
rates and long-term workers’ compensation claims during 2013 and are too volatile to accurately forecast. Past
integrated financial plans state the same factor and determine the dollar amount at year end.
21
   Functional areas include performance clusters, districts, plants, areas, headquarter units, and national programs.
22
   Key initiatives include network updates for customer facing technology improvements, retail terminal replacements,
mail acceptance system simplification, enhancements to mail scanning and tracking systems, and facilities and
equipment needs.

                                                          5
U.S. Postal Service Budget Formulation and                                                           DP-MA-13-002
 Execution Process



                        Table 3. Postal Service Capital Cash Outlay
                     FYs 2010 through 2013 (in Billions) by Category
          Capital Cash      FY 2010        FY 2011       FY 2012     FY 2013
             Outlays         Actual         Actual        Actual     Planned
         Facilities               $0.6           $0.6         $0.4        $0.4
         Equipment                 0.6             0.4         0.3         0.2
         Infrastructure            0.2             0.2         0.1         0.4
         and Support
         Total                    $1.4           $1.2         $0.8        $1.0
       Source: Financial plan for FYs 2012 through 2013.

Financing Plan

Corporate Treasury develops the financing plan, with input from Finance Infrastructure
and Corporate Budget. The financing plan describes the Postal Service’s fiscal year
projected cash flow and the effect on the debt of the organization. Corporate Treasury
makes liquidity projections using current year results and the projected revenue,
expenses, and capital cash outlays for the next fiscal year. Collectively, Corporate
Treasury, the vice president of Finance and Planning, the CFO, the PMG, and the
governors review and approve the liquidity projections. The financing plan is finalized in
late summer/early fall and is updated monthly throughout the year by representatives in
the Finance and Planning area.

As of September 30, 2012, the Postal Service had reached its statutory debt limit of
$15 billion with the U.S. Department of Treasury and maintained a cash balance of
$2.1 billion. Management estimated at the time the FY 2013 IFP was developed that the
Postal Service would end FY 2013 with a positive cash balance of about $0.8 billion.
However, management understood that if legislation did not resolve outstanding issues
with the legally mandated retiree health benefits prefunding requirements, the Postal
Service would be forced to default on the $5.6 billion payment due on
September 30, 2013. 23 According to the Postal Service, the planned $0.8 billion is a
dangerously low level of liquidity and is equivalent to less than 4 days of operating
costs. The actual financing plan for FYs 2010 through 2012, and planned for FY 2013,
is listed in Table 4.




23
  Under the Postal Accountability and Enhancement Act of 2006, the Postal Service is required to pre-fund retiree
health benefits.

                                                         6
U.S. Postal Service Budget Formulation and                                                      DP-MA-13-002
 Execution Process



                  Table 4. Postal Service Financing Plan –
               FYs 2010 through 2013 (in Billions) by Category
                       FY 2010        FY 2011         FY 2012                                   FY 2013
      Category          Actual         Actual          Actual                                   Planned
Revenue                     $67.1           $65.7          $65.2                                     $64.9
Expenses                     75.6            70.8            81.1                                     72.5
Net Loss                    $(8.5)         $(5.1)         $(15.9)                                    $(7.6)

Adjustments to                               3.8                 4.4                14.7                   6.3
Financing Plan 24
Cash Used in                               (4.7)               (0.7)                (1.2)                (1.3)
Operations

Cash at Start of Year                        3.9                 1.0                  1.3                  2.1
Borrowing During the                         1.8                 1.0                  2.0                  0.0
Year
Cash Balance at End                         $1.0                $1.3                $2.1                 $0.8
of Year
Source: Financial plan – FYs 2011 through 2013.

Integrated Financial Plan

Once all the revenue and expenses have been projected for the next fiscal year (by
about August), the manager, Finance Headquarters, prepares a profit and loss
statement to present to the CFO. Upon CFO approval, the manager, Finance
Headquarters, prepares the financial plan. The financial plan is an executive summary
document which includes the operating plan, capital investment plan, and financing plan
for the fiscal year. The financial plan is forwarded to the executive leaders for review
and approval. Upon their approval, the financial plan is presented to the governors for
their review and approval, usually in October or November. The financial plan provides
the governors with a basis for assessing the Postal Service’s estimated business needs
and results. It allows them to continually monitor, evaluate, and make decisions on
issues relating to the Postal Service’s financial and operational conditions throughout
the fiscal year.

Budget Allocation Process

The Finance Operations group begins the initial budget allocation in July, to each of the
seven postal areas and headquarters after the determination of revenue and mail
volume projections. The initial budget for field locations and headquarters is generally
allocated between August and September to ensure the continuation of business from


24
  Adjustments to the Financing Plan include RHB – pre-funding – not paid, depreciation, non-cash workers'
compensation adjustments, and other items such as additional (27) pay days, Federal Employees Retirement System
withholding (payment), and an increase in pre-paid postage.

                                                      7
U.S. Postal Service Budget Formulation and                                                                DP-MA-13-002
 Execution Process


one fiscal year to the next. The initial budget can be adjusted as valid changes arise. 25
The headquarters budget is placed in the Corporate Budget System and the field
location’s budget is placed in the National Budget System. The information from both
systems is linked at the Eagan ASC and automatically recorded in the Accounting Data
Mart (ADM) system 26 for review by managers.

Budgeted amounts are further allocated by the seven areas to their subordinate units.
During the budget allocation process, both headquarters and area offices may retain a
small portion (no more than about 1 percent) of the total budget amount for distribution
at a later date to assist with any unexpected budget changes. Headquarters does not
issue guidance on whether areas should or should not retain a percentage of their
budgets for distribution to affected units when unforeseen circumstances arise. The
decision-making authority for intra-area budget decisions rests with the area vice
presidents. The headquarters-retained amount is held to assist in unexpected or
irregular occurrences, such as a natural disaster, unanticipated increase or decrease in
workload, or implementation of new initiatives that were not fully developed at the time
the budget was issued. When something unexpected occurs, headquarters may transfer
funds as needed without affecting amounts previously allocated to area offices. If
nothing unexpected occurs, headquarters may not distribute and not expend the
amount originally retained. In addition, area offices that retained a similar percentage of
their total budget allocation may distribute that amount among their districts or elect to
not distribute the amount and, therefore, not expend any of the retained amount. The
area vice president is responsible for making that decision.

Budget Execution

Each month management examines and reports on execution of the budget for the
preceding month. This process allows the Postal Service to make adjustments needed
based on operating results and organization needs. Finance and Planning and
Corporate Accounting use the ADM system to monitor and analyze actual versus
planned budget performance for headquarters and field units. Within ADM, budget data
is compiled in a report referred to as the Financial Performance Report (FPR). 27 This
report compiles data for each location in a format that is similar to an income
statement, 28 with revenue and expense account information. The Headquarters Finance
Operations group and Corporate Accounting will run the FPR for revenue and expense
lines and investigate any large differences between budgeted and actual numbers.




25
   Examples of changes in the budget include, but are not limited to, automation, unit closures, unexpected increase
or decrease in productivity or population, fuel or transportation expenses, and erroneous budget information.
26
   ADM is the repository for all accounting and finance related data for the Postal Service that is part of the Enterprise
Data Warehouse system.
27
   A report prepared after general ledger processing is completed. The FPR shows items such as current and year-to-
date revenue and expenses. It segregates activities by category, such as total workhours, revenue, and salary and
benefits.
28
   A financial statement showing profit or loss sustained by a company during a particular period, including all items of
income and expenditure.

                                                            8
U.S. Postal Service Budget Formulation and                                                              DP-MA-13-002
 Execution Process



Headquarters Budget Monitoring

Each month, staff members within the Corporate Budget Office review the performance
report and track each of the headquarters functional units'29 budget performance by
expense type. They also notify the respective headquarters functional group of any
variance exceeding planned performance indicators. 30 If any unexpected variances are
discovered, the Corporate Financial Operations Analysis and Reporting Group 31 will
notify the respective headquarters functional group personnel to determine the
reason(s) for the variance. The Corporate Budget Office consolidates the variance
responses from the units and submits them to the Corporate Financial Operations
Analysis and Reporting Group for review and submission to the CFO.

Field Budget Monitoring

The Field Budget Group 32 uses a similar approach to oversee and monitor areas',
districts', and postal units' budget performance. Field budget personnel at various levels
of the organization (including district, area, and headquarter budget personnel) perform
budget evaluations on their respective offices to determine whether a variance to
budget is evident. If an unusual or irregular item is discovered, budget personnel will
contact the respective unit personnel to determine the nature of the item. Area
managers are required to submit field variance reports to Corporate Accounting with
explanations for any variance, plus or minus, that is greater than $1 million. Corporate
Accounting reviews the reports and follows up on any discrepancy or unusual item with
the respective area office. If any fraudulent irregularities are uncovered or suspected,
they will be reported to the OIG for further investigation.

Budget Performance Evaluation and Review

Corporate Accounting holds monthly meetings to inform the CFO of the reported
financial results and provide the reasons for expense and revenue variances. Monthly
meeting attendees include personnel from Corporate Finance and Reporting, Finance
(Operations and Headquarters), and Corporate Treasury. The purpose of the meeting is
for personnel to assess the reported actual versus plan budget variances. On a
quarterly basis, the CFO meets with the governors' Audit and Finance Committee and
presents a quarterly financial report. The report includes a comparison of the reported
actual versus planned budget variances as established in the financial plan. The
expense and revenue information is reported in actual amounts and percentage
variances that compare current results to same period last year data. In addition, the
29
   Functional units include Corporate Accounting and Corporate Treasury; field support units, such as General
Counsel Field Units, ASCs, and the Postal Inspection Service; and the OIG.
30
   Performance measurements are established at the corporate and unit levels. Targets are defined for each level
and are communicated to all employees at the beginning of the year.
31
   This group monitors financial performance and provides in-depth analysis on a wide range of operational functions
for both internal and external customers. Key components of the reporting portfolio include total factor productivity
and key financial indicators.
32
   The Field Budget Group is material in distributing, overseeing and monitoring the budget to postal areas, districts,
and units.

                                                           9
U.S. Postal Service Budget Formulation and                                                            DP-MA-13-002
 Execution Process


information illustrates current year volume changes compared to the same period last
year.

Budget Close-Out Process

On a monthly basis, all headquarters and service-wide adjustments or changes to
budgets are summarized and reconciled by Corporate Budget staff prior to the accounts
being closed to ensure the budget is accurately stated in the national system. On
September 30 of each year, the Corporate Accounting group and the ASCs begin
closing out the fiscal year budget and analyze the financial ledgers to determine
whether there are any variances or irregular information. The fiscal year financial
statements 33 are not closed out until all issues have been resolved. The normal monthly
closing time period is 7 days; however, the time frame could be extended to ensure all
financial data are correctly reported. At year's end, the closing is not completed until the
annual financial statement audit is conducted and completed by the independent
certified public accounting firm. Once all issues have been resolved, Corporate
Accounting prepares a financial report for review and approval by the controller, the vice
president of Finance and Planning, and the CFO. Once approval has been obtained, the
fiscal year is closed out and the next year begins.

The Postal Service budget has been exempted from the federal government general
budget and funding laws since the Postal Reorganization Act of 1970. However,
beginning with FY 2008, the Postal Service is required to file quarterly Form 10-Q
reports and annual Form 10-K financial reports with the Postal Regulatory Commission
(PRC). These reports are required to comply with Securities and Exchange Commission
reporting guidelines. The financial reporting process involves the financial statements,
10-Q/10-K (including financial statement footnotes and Management’s Discussion and
Analysis), and Form 8-K reporting. 34

Recommendation

This document was prepared to describe the budget formulation and execution process.
Therefore, we made no recommendations. Because we did not make any
recommendations, management chose not to respond formally to this report.




33
  Financial statements are prepared in accordance with generally accepted accounting principles.
34
  Office of Management and Budget (OMB) Circular A-11, Preparation, Submission, and Execution of the Budget,
Part 2, Section 25.1, applies to the Postal Service. This requires the Postal Service, even though it is expressly
excluded from executive review of the budget request, to submit budget information for inclusion in the OMB
database.

                                                         10
U.S. Postal Service Budget Formulation and                                                       DP-MA-13-002
 Execution Process



                               Appendix A: Additional Information

Background

The Postal Reorganization Act of 1970 transformed the Post Office Department into the
U.S. Postal Service, an independent agency of the executive branch. In 1989, the
Postal Service was designated as an off-budget entity. 35 The Postal Service uses the
sale of postage, mail products, and services for revenue to cover its operations as
required by law. In 1992, the maximum amount the Postal Service could borrow from
the U.S. Department of Treasury was set at $15 billion.

FY 2010 through 2012 trends in revenue, expenses, net income, and mail volume are
presented in Table 1. For FY 2012, the Postal Service incurred a $15.9 billion loss,
mainly attributed to its legislatively mandated requirement to pre-fund its future RHB,
but also attributed to a decline in revenue due to decreasing mail volume. At the end of
FY 2012, the Postal Service reached the Treasury's borrowing limit of $15 billion.

The financial plan for FY 2013, approved by the governors on November 15, 2012,
included the following:

    An estimated loss of $7.6 billion that excludes the potential impact of legislative
     changes, 36 and the non-cash workers’ compensation adjustment is projected.

    A projected $1.3 billion in estimated net cash used for Postal Service operations.

    A $5.6 billion expense for pre-funding RHB; however, the Postal Service does not
     have sufficient liquidity to pay this obligation, so it is excluded from cash used for
     operations.

    A beginning cash balance of $2.1 billion, which leaves $0.8 billion of cash available
     at the end of the year (or about 3 days of operations).

Table 5 provides information on actual and planned revenue, expenses, losses, and
mail volumes.




35
  Postal Service receipts and disbursements are not considered part of the congressional and executive budget.
36
  Legislative changes include RHB, Federal Employee Retirement System refund, 5-day delivery, and Postal Health
Plan.

                                                      11
U.S. Postal Service Budget Formulation and                                                           DP-MA-13-002
 Execution Process



             Table 5. Actual Postal Service Revenue, Expenses, Mail Volume
                     FYs 2010 through 2012 and Planned for FY 2013
                                 (in Billions) by Category
              Category         FY 2010        FY 2011      FY 2012   FY 2013
        Revenue                              $67.1             $65.7             $ 65.2             $64.9
        Expenses                              67.6              67.9               67.5              66.7
        Separation Costs                          -                 -                .1                0.2
        Operating Income                     $(0.5)            $(2.2)            $(2.4)             $(2.0)
        (Loss)

        RHB Pre-Funding                       (5.5)                  0            (11.1)              (5.6)
        Workers’                              (2.5)              (2.9)             (2.4)              TBD
        Compensation
        Adjustment 37
        Net Income (Loss)                    $(8.5)            $(5.1)           $(15.9)             $(7.6)
        Mail Volume                          170.6             167.9             159.9              153.1
      Source: Financial plan FYs 2011 through 2013.


Objective, Scope, and Methodology

Our objective was to document and analyze the budget formulation and execution
process. To accomplish our objective, we reviewed budget data for the last 3 fiscal
years. We reviewed Postal Service handbooks and memorandums to determine current
policies and procedures related to the budget process. We interviewed Postal Service
managers at Postal Service Headquarters and area management 38 to obtain an
understanding of current policies and procedures and noted their comments, where
appropriate.

We conducted this review from July 2012 through August 2013, in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on July 23, 2013, and included their comments where appropriate.

We did not use or rely on computer-generated data to support our conclusion.




37
   Workers' compensation adjustments are primarily determined by changes in interest rates during the applicable
fiscal year and are difficult to accurately predict.
38
   We interviewed Finance and Budget personnel in Capital Metro, Western, and Pacific Area offices.

                                                        12
U.S. Postal Service Budget Formulation and                                    DP-MA-13-002
 Execution Process



Prior Audit Coverage

The Postal Service's Budget Enforcement Procedures and the Postal Service (Report
Number RARC-WP-12-007, dated February 22, 2012) found that the Postal Service
report is a self financing entity and should be entirely off-budget and its legislative
agenda should not be stymied by budget scoring. Such a treatment is in keeping with
the Postal Reorganization Act intention to make the Postal Service finances
independent from the federal government.




                                             13
U.S. Postal Service Budget Formulation and                                                    DP-MA-13-002
 Execution Process



                             Appendix B: Budget Formulation and Execution Process Flowchart




                                                           14
U.S. Postal Service Budget Formulation and                                                      DP-MA-13-002
 Execution Process


                              Appendix C: Budget Formulation and Execution Organization Chart




Source: Headquarters, manager Finance Operations.




                                                            15
